<html>
<title> - NATIONAL PRIORITIES FOR SOLAR AND SPACE PHYSICS RESEARCH AND APPLICATIONS FOR SPACE WEATHER PREDICTION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   NATIONAL PRIORITIES FOR SOLAR AND
                       SPACE PHYSICS RESEARCH AND
               APPLICATIONS FOR SPACE WEATHER PREDICTION

=======================================================================



                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, NOVEMBER 28, 2012

                               __________

                           Serial No. 112-107

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
77-037                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          JERRY F. COSTELLO, Illinois
    Wisconsin                        TERRI A. SEWELL, Alabama
LAMAR S. SMITH, Texas                DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         FREDERICA S. WILSON, Florida
FRANK D. LUCAS, Oklahoma             HANSEN CLARKE, Michigan
W. TODD AKIN, Missouri                   
MICHAEL T. McCAUL, Texas                 
SANDY ADAMS, Florida                 EDDIE BERNICE JOHNSON, Texas
E. SCOTT RIGELL, Virginia
MO BROOKS, Alabama
RALPH M. HALL, Texas


                            C O N T E N T S

                      Wednesday, November 28, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chair, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    15
    Written Statement............................................    16

Statement by Representative Donna F. Edwards, Acting Ranking 
  Minority Member, Subcommittee on Space and Aeronautics, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    17
    Written Statement............................................    17

                               Witnesses:

Dr. Daniel Baker, Director, Laboratory for Atmospheric and Space 
  Physics and Professor, Astrophysical and Planetary Sciences, 
  University of Colorado at Boulder; Chair, Decadal Survey in 
  Solar and Space Physics, National Research Council
    Oral Statement...............................................    19
    Written Statement............................................    21

Mr. Charles J. Gay, Deputy Associate Administrator, Science 
  Mission Directorate, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    21
    Written Statement............................................    47

Ms. Laura Furgione, Acting Assistant Administrator for Weather 
  Services and Acting Director, National Weather Service, 
  National Oceanic and Atmospheric Administration
    Oral Statement...............................................    55
    Written Statement............................................    57

             Appendix I: Answers to Post-Hearing Questions

Dr. Daniel Baker, Director, Laboratory for Atmospheric and Space 
  Physics and Professor, Astrophysical and Planetary Sciences, 
  University of Colorado at Boulder; Chair, Decadal Survey in 
  Solar and Space Physics, National Research Council.............    74

Mr. Charles J. Gay, Deputy Associate Administrator, Science 
  Mission Directorate, National Aeronautics and Space 
  Administration.................................................    86

Ms. Laura Furgione, Acting Assistant Administrator for Weather 
  Services and Acting Director, National Weather Service, 
  National Oceanic and Atmospheric Administration................    90


                   NATIONAL PRIORITIES FOR SOLAR AND


                       SPACE PHYSICS RESEARCH AND


               APPLICATIONS FOR SPACE WEATHER PREDICTION

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2012

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.


[GRAPHIC] [TIFF OMITTED] 77037.001

[GRAPHIC] [TIFF OMITTED] 77037.002

[GRAPHIC] [TIFF OMITTED] 77037.003

[GRAPHIC] [TIFF OMITTED] 77037.004

[GRAPHIC] [TIFF OMITTED] 77037.005

[GRAPHIC] [TIFF OMITTED] 77037.006

[GRAPHIC] [TIFF OMITTED] 77037.007

[GRAPHIC] [TIFF OMITTED] 77037.008

[GRAPHIC] [TIFF OMITTED] 77037.009

[GRAPHIC] [TIFF OMITTED] 77037.010

[GRAPHIC] [TIFF OMITTED] 77037.011

[GRAPHIC] [TIFF OMITTED] 77037.012

[GRAPHIC] [TIFF OMITTED] 77037.013

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.
    Chairman Palazzo. The Subcommittee on Space and Aeronautics 
will come to order.
    Good morning, and welcome to today's hearing entitled 
``National Priorities for Solar and Space Physics Research and 
Applications for Space Weather Prediction.'' In front of you 
are packets containing the written testimony, biographies and 
Truth in Testimony disclosures for today's witness panel. I 
recognize myself for five minutes for an opening statement.
    I would like to begin by thanking our witnesses for taking 
time from their busy schedules to appear before us this morning 
to examine the National Research Council's recommendations for 
the U.S. solar and space physics research program and 
applications for space weather prediction. I realize you and 
your staff devoted considerable time and effort preparing for 
this hearing, and we appreciate your expertise as we consider 
these issues in the upcoming session of Congress.
    Unfortunately, our Ranking Member was unable to join us 
today, but before getting started, I did want to extend my warm 
wishes to Subcommittee Ranking Member Jerry Costello, who is 
retiring at the end of this Congress. He has been a genuine 
pleasure to work with, and in the brief time we have served 
together, I have come to admire his deep knowledge about this 
institution, NASA, his deep insight into the FAA, and his sense 
of grace. He has been a steady voice of reason, and I believe 
we will all miss him.
    Our hearing today will focus on the incredible work being 
accomplished by NASA's Heliophysics Division and on the 
important operational aspect this research has for space 
weather prediction at NOAA. NASA has developed and launched a 
broad network of spacecraft that allows researchers to better 
understand the Earth-Sun system. Their findings are used daily 
to help preserve our technological infrastructure by allowing 
system operators to better react to variations of the Sun. 
Building our knowledge in this field is essential for 
maintaining our way of life on Earth as well as for improving 
the capability of enabling human exploration beyond the 
protection of Earth's atmosphere and magnetosphere. Together 
with a ground-based infrastructure of solar telescopes managed 
by the National Science Foundation, NASA and NOAA coordinate 
critical measurements into useable models that predict how 
space weather will affect our satellites, electric power grid, 
airline operators, and more. The Space Weather Prediction 
Center, operated by NOAA's National Weather Service, provides 
real-time monitoring and forecasting of solar and geophysical 
events and is continuously exploring new models and products to 
transition to operations.
    Today's hearing will examine the requirements for a robust 
space-based solar and space physics research program and 
discuss the application of this research for an operational 
space weather program. The baseline assessment in this 
examination will be the set of recommendations outlined by the 
National Research Council's Solar and Space Physics: A Science 
for a Technological Society decadal survey. Notably, the survey 
committee acknowledged the prospect of limited budgets and 
therefore recommended NASA stay the course on major programs 
under development, specifically for Solar Probe Plus. The 
survey committee further recommended that NASA utilize its 
current resources most effectively by focusing resources on 
those activities that will DRIVE; or Diversify, Realize, 
Integrate, Venture Educate, the next generation of solar and 
space physics research. The survey committee also provides 
specific recommendations for our Nation's space weather 
enterprise and provides detailed recommendations to NASA, NSF 
and NOAA on how to best accomplish a robust space weather and 
climatology program for the future.
    As we enter into the next solar maximum--an 11-year solar 
cycle that is marked by increased solar activity--the 
availability of solar wind measurements in particular are 
essential for maintaining our way of life. As has been stated 
countless times over the last several years, however, we face a 
tough budget environment. In order to continue a robust solar 
and space physics program, a prudent and careful examination of 
the core capabilities and essential services this country needs 
is first and foremost on our agenda.
    I look forward to today's discussion, and wish to again 
thank our witnesses for their presence.
    [The prepared statement of Mr. Palazzo follows:]

     Prepared Statement of Subcommittee Chairman Steven M. Palazzo

    I would like to begin by thanking our witnesses for taking time 
from their busy schedules to appear before us this morning to examine 
the National Research Council's recommendations for the U.S. solar and 
space physics research program and applications for space weather 
prediction. I realize you and your staff devoted considerable time and 
effort preparing for this hearing and we appreciate your expertise as 
we consider these issues in the upcoming session of Congress.
    Our hearing today will focus on the incredible work being 
accomplished by NASA's Heliophysics Division and on the important 
operational aspect this research has for space weather prediction at 
NOAA. NASA has developed and launched a broad network of spacecraft 
that allow researchers to better understand the Earth-Sun system. Their 
findings are used daily to help preserve our technological 
infrastructure by allowing system operators to better react to 
variations of the Sun. Building our knowledge in this field is 
essential for maintaining our way of life on Earth as well as for the 
improving the capability of enabling human exploration beyond the 
protection of Earth's atmosphere and magnetosphere.
    Together with a ground-based infrastructure of solar telescopes 
managed by the National Science Foundation, NASA and NOAA coordinate 
critical measurements into useable models that predict how space 
weather will affect our satellites, electric power grid, airline 
operators, and more. The Space Weather Prediction Center operated by 
NOAA's National Weather Service, provides real-time monitoring and 
forecasting of solar and geophysical events and is continuously 
exploring new models and products to transition to operations.
    Today's hearing will examine the requirements for a robust space-
based solar and space physics research program and discuss the 
application of this research for an operational space weather program. 
The baseline assessment in this examination will be the set of 
recommendations outlined by the National Research Council's Solar and 
Space Physics: A Science for a Technological Society decadal survey. 
Notably, the survey committee acknowledged the prospect of limited 
budgets and therefore recommended NASA ``stay the course'' on major 
programs under development--specifically for Solar Probe Plus. The 
survey committee further recommended that NASA utilize its current 
resources most effectively by focusing resources on those activities 
that will ``DRIVE--or Diversify, Realize, Integrate, Venture, Educate'' 
the next generation of solar and space physics research.
    The survey committee also provides specific recommendations for our 
nation's space weather enterprise and provides detailed recommendations 
to NASA, NSF and NOAA on how to best accomplish a robust space weather 
and climatology program for the future.
    As we enter into the next solar maximum--an 11 year solar cycle 
that is marked by increased solar activity--the availability of solar 
wind measurements in particular are essential for maintaining our way 
of life. As has been stated countless times over the last several 
years, however, we face a tough budget environment. In order to 
continue a robust solar and space physics program, a prudent and 
careful examination of the core capabilities and essential services 
this country needs is first and foremost on our agenda.
    I look forward to today's discussion, and wish to again thank our 
witnesses for their presence.

    Chairman Palazzo. At this time I now recognize Ms. Edwards 
for an opening statement.
    Ms. Edwards. Thank you Chairman Palazzo, and thank you for 
your gracious comments about Ranking Member Jerry Costello. I 
know he regrets not being here, and like you, I too have 
learned both from his graciousness but also from his work 
ethic.
    Mr. Chairman, I appreciate your holding this hearing today 
to examine the recommendations for the Nation's solar and space 
physics research program and the benefits of this research for 
space weather prediction.
    A little more than a week ago, the Sun had two solar 
events, in this case prominence eruptions, over a 4-hour time 
span. NASA's Solar Dynamic Observatory spacecraft captured the 
activity, and while the event would not affect Earth, this and 
other solar events days earlier led to alerts of potential 
high-frequency radio communication blackouts and weak power 
grid fluctuations.
    Because solar events such as these can have marked impacts 
on ground- and space-based technological systems and services, 
such as GPS-related services, communications, aviation, the 
electric power grid, and pipelines, the Nation's basic research 
programs have a direct bearing on protecting our Nation's 
critical infrastructure.
    In August 2012, the National Academies released its decadal 
survey, ``Solar and Space Physics: A Science for a 
Technological Society.'' The recommendations provided 
independent, external input on the priorities and plans for 
space and ground-based solar and space physics research 
activities over the next decade, and on the applications of the 
research to space weather prediction.
    So, I am pleased to hear from our witnesses today on the 
decadal survey recommendations, the current activities and 
future plans for the NASA program, and the operational 
activities related to space weather prediction. And Mr. 
Chairman, I would be remiss if I didn't mention the budgetary 
challenges for this research. In a crunch budget environment, 
there are significant implications for our society if we don't 
continue and expand research in this area. We need to protect 
these R&D investments. Our assets, our quality of life and our 
economic strength as a Nation depend on the research.
    Thank you and I yield back the balance of my time.
    [The prepared statement of Ms. Edwards follows:]

 Prepared Statement of Acting Ranking Minority Member Donna F. Edwards
    Mr. Chairman, thank you for holding today's hearing to examine the 
recommendations for the nation's solar and space physics research 
program and the benefits of this research for space weather prediction.
    A little more than a week ago, the Sun had two solar events-in this 
case ``prominence eruptions''--over a four-hour time span. NASA's Solar 
Dynamic Observatory (SDO) spacecraft captured the activity, and while 
the event would not affect Earth, this and other solar events days 
earlier led to alerts of potential high frequency radio communication 
blackouts and weak power grid fluctuations.
    Because solar events such as these can have marked impacts on 
ground- and space-based technological systems and services, such as 
GPS-related services, communications, aviation, the electric power 
grid, and pipelines--the Nation's basic research programs have a direct 
bearing on protecting our nation's critical infrastructure.
    In August 2012, the National Academies released its decadal survey, 
``Solar and Space Physics: A Science for a Technological Society.''
    The recommendations provide independent, external input on the 
priorities and plans for space- and ground-based solar and space 
physics research activities over the next decade, and on the 
applications of the research to space weather prediction.
    So, I'm pleased to hear from our witnesses today on the decadal 
survey recommendations, the current activities and future plans for the 
NASA program, and the operational activities related to space weather 
prediction.
    Mr. Chairman, I would be remiss if I did not mention the budgetary 
challenges for this research, which has such significant implications 
for our society.
    We need to protect these R&D investments. Our assets, our quality 
of life, and our economic strength as a nation depend on this research.
    Thank you and I yield back the balance of my time.

    Chairman Palazzo. Thank you, Ms. Edwards.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our panel and then 
we will proceed to hear from each of them in order.
    Our first witness is Dr. Daniel Baker. Dr. Baker is 
Director of the Laboratory for Atmospheric and Space Physics, 
University of Colorado at Boulder, and is Professor of 
Astrophysical and Planetary Sciences and Professor of Physics 
there. He currently is Lead Investigator on several NASA space 
missions including the Messenger mission to Mercury, the 
Magnetosphere Multiscale mission, and the NASA Radiation Belt 
Storm mission. He was a member of the 2006 decadal review of 
the U.S. National Space Weather Program and recently chaired 
the National Research Council's 2013 to 2022 decadal survey in 
solar and space physics.
    Our next witness is Mr. Charles Gay, the Deputy Associate 
Administrator for the Science Mission Directorate at the 
National Aeronautics and Space Administration. Mr. Gay has 
served NASA in senior management positions for many years 
including Deputy Director of the Office of Systems Safety and 
Mission Assurance at Goddard Space Flight Center, NASA Deputy 
Director of the Heliophysics Division at NASA headquarters. In 
addition to his experience at NASA, Mr. Gay has over 20 years 
of experience in the aerospace industry. Mr. Gay received a 
B.S. in civil engineering and an M.S. in structural engineering 
from the University of Maryland.
    Our final witness is Ms. Laura Furgione, who serves as the 
National Oceanic and Atmospheric Administration Acting 
Assistant Administrator for Weather Services and Acting 
Director of the National Weather Service. In this role, she is 
responsible for the day-to-day civilian weather operations for 
the United States, its territories, adjacent waters and ocean 
areas. Ms. Furgione has served NOAA in a variety of roles over 
her career including the Deputy Director of NWS and as 
Assistant Administrator for the NOAA Office of Program Planning 
and Integration. Ms. Furgione holds a bachelor of science 
degree in Atmospheric Science from the University of Missouri-
Columbia and a master's degree in public administration from 
the University of Alaska Southeast.
    Welcome, everyone. And as our witnesses should know, spoken 
testimony is limited to five minutes each. After all witnesses 
have spoken, Members of the Committee will have five minutes 
each to ask questions.
    I now recognize our first witness, Dr. Daniel Baker, for 
five minutes to present his testimony.

            STATEMENT OF DR. DANIEL BAKER, DIRECTOR,

                 LABORATORY FOR ATMOSPHERIC AND

                 SPACE PHYSICS, AND PROFESSOR,

             ASTROPHYSICAL AND PLANETARY SCIENCES,

               UNIVERSITY OF COLORADO AT BOULDER,

               AND CHAIR, DECADAL SURVEY IN SOLAR

          AND SPACE PHYSICS, NATIONAL RESEARCH COUNCIL

    Dr. Baker. Thank you, Mr. Chairman, and thank you, 
Representative Edwards. Thank you for the opportunity to 
testify today. My name, as said, is Daniel Baker. I am at the 
University of Colorado. It was my privilege to chair the 
National Research Council's Committee for a Decadal Strategy 
for Solar and Space Physics, or heliophysics, as it is referred 
to at NASA.
    Our study was requested by NASA and the National Science 
Foundation and was carried out with the full cooperation of 
these agencies and with NOAA. The study is national in scope, 
and its recommendations are directed to all relevant agencies 
engaged in solar and space physics research and applications. I 
believe that implementation of the survey committee's 
recommended programs will ensure the United States maintains 
its leadership in space physics and will lead to significant, 
even transformative advances in scientific understanding and 
operational capabilities.
    Space physics research provides new observations and 
scientific knowledge about the Sun and how it interacts with 
the planets and with the local reaches of our galaxy. Of most 
importance to society, solar and space physics research 
observations and modeling lets us understand the origins and 
consequences of the Sun's interactions with the Earth and what 
we refer to as space weather.
    Our report is one that is responsive to both of these 
drivers, the necessity to be innovative in the science field 
with multi-agency, multi-scale observations and theoretical 
tools, and a community that seeks to add value to a Nation that 
is increasingly vulnerable to space weather effects.
    The decadal survey committee's recommendations are also 
responsive to budgetary constraints. Recognizing the importance 
of crafting a resilient program in uncertain budgetary times, 
the survey report includes decision rules to guide programmatic 
changes should they become necessary.
    NASA's existing heliophysics flight missions and NSF's 
ground-based facilities form a network of observing platforms 
that operate simultaneously to investigate the entire solar 
system. The survey's first priority is to complete the ongoing 
program, to support this ongoing existing program and complete 
missions and programs in development.
    Our second-highest priority is to implement a new, 
integrated, multi-agency initiative, which we call D-R-I-V-E, 
as was said, DRIVE, encompasses specific cost-effective 
augmentations to NASA and NSF's space physics programs. DRIVE 
will bring existing enabling programs to full fruition through 
innovative, targeted programs and will also support larger-
scale activities recommended for later in the decade. Its 
components are described more thoroughly in my written 
testimony.
    Our third priority is for NASA to accelerate and expand the 
Heliophysics Explorer program. Explorer-class missions have an 
outstanding record of delivering scientific results of great 
consequence in a timely and cost-effective manner.
    The fourth priority is that the committee also recommends 
that NASA's Solar-Terrestrial Probes program should be 
restructured as a moderate-sized competed principal 
investigator-led mission line that is cost-capped at $520 
million per mission, full lifecycle cost. The first recommended 
new solar-terrestrial probe reference target, IMAP, is to 
capitalize on Voyager observations to understand the outer 
heliosphere and its interactions with the inner stellar medium. 
Certain landmark scientific problems are of such scope and 
complexity, they can only be addressed with major missions. In 
our survey committee plan, major heliophysics missions would be 
implemented within NASA's Living With a Star (LWS) program. The 
survey committee recommends that they continue to be managed 
and executed by NASA centers.
    As this Committee knows full well, multiple agencies in the 
Federal Government have vital interests related to space 
weather. Our committee is concerned about the degree of 
coordination between these agencies and the ad hoc nature of 
partnerships and the limited nature of resources. For reasons 
detailed in our report, our committee believes the first 
necessary but insufficient step is to recharter the existing 
space weather coordinating body, the National Space Weather 
Program, under the auspices of the National Science and 
Technology Council. Rechartering in this way may improve 
interagency coordination but longer-term, additional resources 
will be necessary to ensure continuing availability of the 
requisite measurements. NASA research satellites such as ACE, 
SOHO, STEREO, SDO, which are designed for scientific studies, 
provide critical measurements essentially for specifying and 
forecasting space environment systems. However, NASA has 
neither the mandate nor the budget to sustain these 
measurements into the future.
    In the survey report, the committee articulates a vision 
for an enhanced national commitment by partnering agencies--
NOAA, NASA, NSF, USGS, other agencies--for continued 
measurements of critical space environment parameters. In this 
partnership, we see NASA utilizing its unique space-based 
capabilities as the basis for a new program that provides 
sustained monitoring of key space environment observables.
    Thank you again for the opportunity to bring these issues 
from the NRC decadal survey to your attention. I look forward 
to your questions. Thank you very much.
    [The prepared statement of Dr. Baker follows:]
    [GRAPHIC] [TIFF OMITTED] 77037.014
    
    [GRAPHIC] [TIFF OMITTED] 77037.015
    
    [GRAPHIC] [TIFF OMITTED] 77037.016
    
    [GRAPHIC] [TIFF OMITTED] 77037.017
    
    [GRAPHIC] [TIFF OMITTED] 77037.018
    
    [GRAPHIC] [TIFF OMITTED] 77037.019
    
    [GRAPHIC] [TIFF OMITTED] 77037.020
    
    [GRAPHIC] [TIFF OMITTED] 77037.021
    
    [GRAPHIC] [TIFF OMITTED] 77037.022
    
    [GRAPHIC] [TIFF OMITTED] 77037.023
    
    [GRAPHIC] [TIFF OMITTED] 77037.024
    
    [GRAPHIC] [TIFF OMITTED] 77037.025
    
    [GRAPHIC] [TIFF OMITTED] 77037.026
    
    [GRAPHIC] [TIFF OMITTED] 77037.027
    
    [GRAPHIC] [TIFF OMITTED] 77037.028
    
    [GRAPHIC] [TIFF OMITTED] 77037.029
    
    [GRAPHIC] [TIFF OMITTED] 77037.030
    
    [GRAPHIC] [TIFF OMITTED] 77037.031
    
    [GRAPHIC] [TIFF OMITTED] 77037.032
    
    [GRAPHIC] [TIFF OMITTED] 77037.033
    
    [GRAPHIC] [TIFF OMITTED] 77037.034
    
    [GRAPHIC] [TIFF OMITTED] 77037.035
    
    [GRAPHIC] [TIFF OMITTED] 77037.036
    
    [GRAPHIC] [TIFF OMITTED] 77037.037
    
    Chairman Palazzo. Thank you, Dr. Baker.
    I now recognize our next witness, Mr. Charles Gay, for five 
minutes to present his testimony.

                STATEMENT OF MR. CHARLES J. GAY,

                DEPUTY ASSOCIATE ADMINISTRATOR,

                  SCIENCE MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gay. Thank you. Mr. Chairman and Members of the 
Subcommittee, thank you for the opportunity to discuss NASA's 
heliophysics program, and in particular, NASA's response to the 
heliophysics decadal survey released in August of 2012.
    NASA's heliophysics program studies, the Sun, the Earth's 
near-space environment and the heliosphere, the region created 
by the solar wind that forms the boundary of our solar system. 
By studying this interconnected system, NASA provides 
understanding of the fundamental space processes that occur 
throughout the university and drive our connected Sun-Earth 
system.
    NASA currently operates 18 heliophysics missions that can 
be thought of as a single observatory: the Heliophysics System 
Observatory, or HSO. The HSO has produced a number of 
scientific discoveries over the last year alone. Voyager has 
taken us to the edge of the solar system, and many believe they 
will leave the solar system and reach interstellar space within 
the next decade. The twin STEREO spacecraft have allowed us to 
view space weather events throughout the solar system, and the 
recently launched Van Allen probes are already making new 
discoveries about Earth's radiation belts.
    In addition, NASA continues to develop important new 
missions to support the Heliophysics Research program: the IRIS 
explorer mission, launching next spring, the Magnetosphere 
Multiscale Mission, launching in 2015, the Solar Orbiter, a 
collaboration with European Space Agency, planned for launch in 
2017, and Solar Probe Plus in 2018.
    NASA is pleased to receive the heliophysics decadal survey 
and plans to work towards accomplishing the recommendations for 
our science program. As its top priority, the survey endorses 
NASA's current program of missions in development. The second 
priority is the DRIVE initiative that Dr. Baker mentioned. Its 
goal is to optimize the scientific return of current and future 
missions by establishing a healthy research environment and to 
also enable future missions through technology enhancements.
    The next priority is the acceleration and expansion of the 
Heliophysics Explorer program. The Explorer program has a long 
history of returning focused, cutting-edge science and 
providing tremendous value to this Nation. The decadal 
committee recognized that we are operating in times of flat 
budgets and understood that the modest increases for DRIVE and 
Explorer would be achieved through a gradual rebalance of this 
portfolio.
    The survey then prioritized the science targets for four 
recommended missions in the Solar Terrestrial Probes program 
and the Living With a Star program. NASA appreciates the 
flexible nature of this recommendation. By providing science 
targets and leaving the detailed implementation to NASA, we can 
ensure that these missions are guided by the latest science and 
enabled by the latest technologies. Furthermore, the decision 
rules embedded within the survey will allow us to ensure that 
the highest priorities will be addressed.
    In addition to the heliophysics science recommendations, 
the survey also made recommendations related to space weather 
applications that are addressed collectively to the relevant 
government agencies. NASA recognizes the importance of the 
recommendations and will continue collaborating with other 
agencies. However, as the survey acknowledges, these separate 
space weather recommendations are above and beyond current 
funding resources. NASA and NOAA currently work together and 
with other government agencies on satellite development, 
operations, data processing, and modeling to inform space 
weather predictions. NASA performs research that leads to 
improved space weather prediction models and works with NOAA to 
transition these research results to operations. NASA has also 
committed to supporting its part of the National Space Weather 
program, a federal interagency initiative established to 
improve coordination on space weather activities.
    I would like to express my appreciation to the survey 
Chairs, Dr. Dan Baker and Dr. Thomas Zurbuchen, and to the many 
volunteers and staff who worked tirelessly to develop this 
decadal survey. They have provided an effective guide for NASA 
to pursue the highest-priority science in heliophysics over the 
next decade.
    Mr. Chairman and Members of the Subcommittee, I appreciate 
your support of NASA's heliophysics program and the opportunity 
to appear here today. I would be pleased to respond to your 
questions. Thank you.
    [The prepared statement of Mr. Gay follows:]
    [GRAPHIC] [TIFF OMITTED] 77037.038
    
    [GRAPHIC] [TIFF OMITTED] 77037.039
    
    [GRAPHIC] [TIFF OMITTED] 77037.040
    
    [GRAPHIC] [TIFF OMITTED] 77037.041
    
    [GRAPHIC] [TIFF OMITTED] 77037.042
    
    [GRAPHIC] [TIFF OMITTED] 77037.043
    
    [GRAPHIC] [TIFF OMITTED] 77037.044
    
    [GRAPHIC] [TIFF OMITTED] 77037.045
    
    Chairman Palazzo. Thank you, Mr. Gay.
    I now recognize our final witness, Ms. Laura Furgione, for 
five minutes to present her testimony.

                STATEMENT OF MS. LAURA FURGIONE,

                 ACTING ASSISTANT ADMINISTRATOR

                     FOR WEATHER SERVICES,

         AND ACTING DIRECTOR, NATIONAL WEATHER SERVICE,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Ms. Furgione. Good morning, Mr. Chairman and Members of the 
Committee. My name is Laura Furgione, and I am the Acting 
Director of the National Weather Service in NOAA. Thank you for 
the opportunity to testify today about space weather.
    While probably best known for our role in hurricane, 
tsunami, flood and tornado forecasts and warnings, NOAA also 
has operational responsibilities for space weather forecasts 
and warnings. NOAA is the U.S. government's official and 
definitive source of civilian space weather forecasts, warnings 
and alerts for the general public, industry and government 
agencies. The NOAA Space Weather Prediction Center, commonly 
called SWPC, operates 24 hours a day, providing real-time 
forecasts and warnings of solar and geophysical events to a 
society that is increasing its reliance on technology 
vulnerable to the impacts from space weather.
    Recognizing the importance of 24/7 forecasts and warnings, 
in 2005, NOAA transferred its space weather prediction program 
from an applied research environment to our operational 
environment. NOAA geostationary spacecraft provide critical 
observations of solar and geophysical events for NOAA's space 
weather forecasts used by thousands of customers worldwide 
including the Department of Defense, NASA, satellite companies 
and airlines, as you said. In fact, 80 percent of the DOD space 
weather alerts and warnings rely on GOES data. Currently, NOAA 
polar satellites include the space environment monitor, which 
is a suite of instruments that measure energetic particles in 
the lower Earth orbit which may impact communications, 
satellite operations, radar systems, and the International 
Space Station. SWPC also uses data from the NASA Advanced 
Composition Explorer, or ACE satellite, to issue warnings on 
geomagnetic storms. ACE was launched in 1997 with a two-year 
design life and as a single point of failure for these critical 
measurements. SWPC also relies on the chronograph data from the 
Solar and Heliophysics Observatory and the Solar-Terrestrial 
Relations Observatory Missions to see coronal mass ejections, 
or CMEs, that erupt from the Sun, allowing NOAA to issue 
geomagnetic storm watches, which provide 1- to 3-day advance 
notice of a geomagnetic storm.
    There are extensive interagency interactions and planning 
already underway to ensure continuity of solar wind data and 
CME detection. NOAA is working with NASA to refurbish the Deep 
Space Climate Observatory, or the DSCOVR spacecraft, to provide 
space weather measurements from the L1 position, which is 
between the Sun and the Earth, about a million miles upstream. 
Data from this location provide 1 hour of warning for a 
geomagnetic storm that will impact the Earth affecting the 
electric power grid, satellites, GPS, radio communications and 
other systems, as mentioned. NOAA and the Air Force have been 
appropriated funding to refurbish, launch and operate the 
DSCOVR satellite to provide continuity of solar wind 
measurements as well as CME. NOAA is also working to 
incorporate cutting-edge technology under development at NASA. 
NOAA will continue interagency and international partnerships 
as well as the use of commercial services to meet these data 
requirements.
    SWPC maintains a close working relationship with its user 
community and adjusts its products and services to meet the 
growing and changing needs of these customers. Through this 
interaction, NOAA identifies operational data requirements and 
space weather model requirements, which are made available to 
NASA, NSF and the broader research community. NOAA transitioned 
this research into operations as efficiently and effectively as 
possible.
    In 2011, NOAA successfully transitioned the first-ever 
physics-based space weather prediction model into operational 
use. This model was largely developed by NSF and transitioned 
into research into operations from NASA. This model helps 
forecasters understand when an eruption on the Sun may impact 
the Earth and result in a geomagnetic storm.
    The NRC decadal survey report emphasizes the importance of 
space weather for society and therefore the value of work 
conducted by NOAA to provide services that protect life, 
property and enhance the economy. This report sets dates for 
NOAA to continue fulfilling its critical leadership role in 
space weather operations and applying forecasts and services to 
the benefit of society. As the agency responsible for 
integrating research into operations, NOAA looks forward to 
working with our federal partners to ensure the latest 
successful research is available and to be transitioned.
    The report states, ``It is critical that we develop 
predictive capabilities for space weather events while 
maintaining comprehensive measurements for now casting solar 
wind, energetic particle inputs into geospace.'' We must ensure 
operational needs continue to be met. The report also discusses 
distribution of essential operational data. NOAA believes that 
as the operational agency, it should continue to distribute 
these observations.
    Our Nation remains vulnerable to space weather and needs 
more timely and accurate forecasts to help mitigate the 
potential impacts. The NRC report is an excellent first step 
and identifies critical research activities that are necessary 
to expand our comprehensive understanding of space weather as 
well as improve our Nation's forecast and warning capability. 
The Nation requires ongoing research and development that will 
inform operations. As such, NASA, NSF and the academic 
community conduct important research and development activities 
that NOAA can access for its operations. The NRC report has 
provided critical insight into the areas that the larger space 
weather community and the agencies will continue to assess in 
the years to come.
    Thank you very much for your time and the opportunity to 
comment today.
    [The prepared statement of Ms. Furgione follows:]
    [GRAPHIC] [TIFF OMITTED] 77037.046
    
    [GRAPHIC] [TIFF OMITTED] 77037.047
    
    [GRAPHIC] [TIFF OMITTED] 77037.048
    
    [GRAPHIC] [TIFF OMITTED] 77037.049
    
    [GRAPHIC] [TIFF OMITTED] 77037.050
    
    Chairman Palazzo. I thank the panel for their testimony. I 
now recognize myself for five minutes for questions.
    Mr. Gay, given the emphasis the survey committee places on 
maintaining NASA's current portfolio of missions, can you 
provide us a quick status update on the missions currently in 
development, particularly the Solar Probe Plus, and what are 
the greatest risks to cost and schedule at this point in time 
and how does the current Continuing Resolution impact NASA's 
ability to keep these missions on track? So about three 
questions in one.
    Mr. Gay. Yes, sir. The quick status of the missions in 
development, and I mentioned most of them earlier in the oral 
testimony, the IRIS Explorer mission is on track for a launch 
in early 2013. The next large mission is the Magnetospheric 
Multiscale mission on track for launch in 2015, and it is well 
into development. Basically, we are putting that spacecraft 
together right now at the Goddard Space Flight Center, and it 
is undergoing environmental testing very shortly for launch in 
2015. The Solar Probe Plus mission is in what we call phase B. 
It is in its formulation phase. We are doing technology work. 
We are doing preparations for the critical--the preliminary and 
the critical design reviews. There are technical challenges 
there associated with that mission as it is going to come 
within 9-1/2 solar radii of the Sun so the thermal control 
systems are one of the greatest challenges there. The 
spacecraft exterior surfaces will see temperatures in excess of 
2,000 degrees Fahrenheit while the electronics will operate at 
room temperature. The applied physics lab is responsible for 
implementing that mission, and they have--they are also the 
organization that successfully launched and operated the 
Messenger mission to Mercury. So they are used to those hot 
environments, so we are very optimistic that they have got the 
thermal control system, you know, well understood here.
    The risks to cost and schedule, we are still in the 
formulation phase for in particular Solar Probe Plus and it has 
not been confirmed yet where NASA goes through all of the joint 
conference level cost estimates and independent cost estimates 
and determines the costs that it will take to implement this 
mission. That will occur in, I believe, toward the end of 2013, 
toward the end of next year where we will have that commitment 
date, and so the risks there are getting through the technology 
hurdles for the thermal control subsystem solar rays, which 
are--in this case, they have to be liquid cooled. So those are 
the things we are watching very closely.
    In terms of the effect of the CR, right now we are 
operating under the 2012 funding levels. Fortunately for 
heliophysics, that is annualized. When you annualize that, that 
is really close to the fiscal year 2013 President's budget. So 
we don't anticipate any problems, at least for the next six 
months in the heliophysics organization, maintaining its 
mission on track.
    Chairman Palazzo. Well, thank you, Mr. Gay.
    Ms. Furgione, the ACE satellite was launched in 1997 and is 
currently operating well beyond its planned two-year lifetime 
while DSCOVR is scheduled to launch in 2014 and is designed for 
only two years mission life. How does NOAA plan to sustain 
critical space weather measurements after 2016?
    Ms. Furgione. Thank you for that question, Mr. Chairman. We 
already have begun the evaluation of best value operations for 
continuing NOAA requirements for solar winds and even the 
initiation of operational CME imagery for the post-DSCOVR era. 
This will include the role of government agencies as well as 
the commercial sector and what they could contribute to that 
post-DSCOVR era.
    Chairman Palazzo. My next question is for all the 
witnesses. What recommendations do you have to ensure that the 
Nation maintains continuous space weather measurements and how 
do we ensure that these measurements do not end up as the next 
Landsat such that everyone wants the data but no one could 
afford to pay for the next satellite? Who would like to take 
that one first? You can rock, paper, scissors for it.
    Ms. Furgione. I can at least start with your question, Mr. 
Chairman. One critical component is for the entire space 
weather enterprise to work together on this and make sure that 
the government agencies, the commercial sector and also our 
international partners are a part of this continuous of our 
space weather--continuous space weather measurements. So that 
is critical to make sure that we continue communicating across 
the agencies and with our partners, and the international 
community has really stepped up so we have some good 
partnerships there as well.
    Mr. Gay. I would add a couple things. One, I think the 
value that NASA brings is to better understand the fundamental 
physical processes involved in the way the Sun behaves and the 
interaction of the Sun with our environment, and the better we 
understand that phenomenon, the better poised we are to 
understand space weather, understand--and better able to model 
and predict. Along the lines of maintaining measurements, 
heliophysics has a large portfolio of operating missions, 18 
currently, and we look at those missions not just as individual 
phenomena, but look at those missions as they contribute to the 
broader understanding of the environment, of the space 
environment, and we have recognized the value in that, and for 
that reason, we are--as long as these missions are producing 
valuable scientific information, we want to keep them operating 
and we have budgeted accordingly. We go through a comprehensive 
senior review process every two years to look at the operating 
missions and assess how they are performing, their state of 
operation, if there is any degradation, are they still 
contributing to the greater good, and as long as that is true, 
we are going to keep those spacecraft flying.
    Dr. Baker. And thank you very much for your question. It 
indicates a sensitivity that I think is very important, and the 
steering committee for the NRC study was very concerned about 
your very question, and I think it is crucial that the next 
steps that we recommended there be taken to look at the posture 
of the Nation with respect to key observations, modeling tools 
and so forth that are necessary for an effective 24/7 space 
weather program into the future. I think it is going to require 
coordination between the many agencies that are interested in 
this theme and it is going to take a much more focused effort 
at high policy levels to assure that we don't have gaps, that 
we don't have failures to observe the Sun and its effects on 
the Earth. So this is one of the key things that needs to 
follow on the decadal survey, in my opinion.
    Chairman Palazzo. Thank you all.
    I now recognize Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to our 
witnesses.
    Mr. Gay, given the uncertainties and the stresses of the 
current budgetary environment, how is NASA planning to leverage 
the recommendations in the current survey, and in particular, I 
was looking at the recommendation around an expanded role for 
NASA in the post-DSCOVR environment. So if you could respond to 
that, I would appreciate it.
    Mr. Gay. Yes. In terms of the budget stress, fortunately, 
the decadal committee recognized the environment that we are 
operating in and the possibility or likelihood of budget 
stress, and because of that, they did give us some, I think, 
very good guidance in terms of decision rules of what to do if 
we are faced with the problems as we work towards implementing 
the recommendations of the decadal survey, and we do appreciate 
that very much. They also recognized when they recommended 
augmentations for Explorer and also for the DRIVE initiative, 
they recognized that the heliophysics program has a lot in the 
pipeline right now and those changes, or those enhancements or 
augmentations would not be realized until sometime downstream 
when we can rebalance the portfolio gradually.
    In terms of the expanded role for space weather, as the 
survey committee pointed out, the recommendations for an 
augmented space weather capability were beyond our current 
scope and funding and also were considered a lower priority 
than the science program recommendations that they made.
    Ms. Edwards. Just out of curiosity, though, is the next 
budget submission intended to incorporate the decadal survey 
recommendations, even if that is over some period of time?
    Mr. Gay. Yes, I believe, beginning in the 2015 budget 
request, we would begin to see some maybe slight rebalancing 
but, I mean, our goal would be to achieve that over the next 
five to ten years.
    Ms. Edwards. Dr. Baker?
    Dr. Baker. Yeah, I would just like to point out that one of 
the things we did in the decadal survey was to recommend the 
IMAP mission. This is the Interstellar Mapping and Acceleration 
Probe, and this has dual use. It is both a wonderful basic 
science mission to observe the outer part of the heliosphere 
but it also would make key solar wind measurements, solar wind 
measurements that would be a space weather monitoring kind of a 
tool, so I think there is a great deal we can do to have both 
basic science and operational capability, and this is just one 
example of the dual use kind of capabilities we talked about.
    Ms. Edwards. Thank you.
    Ms. Furgione, I am sorry. I mispronounced your name. Ms. 
Furgione, I wonder if you could tell me about the accuracy of 
predicting space weather events, because it does seem to me 
that those are increasingly important in terms of our operation 
of our critical infrastructure, and in fact every day because 
we have more infrastructure that is impacted potentially by 
space weather, and so how good are the--is the current 
prediction capability and what kinds of improvements can we 
expect to gain with the implementation of the research 
recommended in the survey?
    Ms. Furgione. Thank you, Ms. Edwards. That is one of the 
components of our operational forecasting scheme is to always 
validate and verify our forecasts. So we have made significant 
advancements in the era of when the actual event impacts the 
Earth. Where we were at 13 hours, our era could be anywhere 
within a 13-hour window. Now we have reduced that down to a 6-
hour window on when we know that the coronal mass ejection will 
impact the Earth. So that is great strides in improving our 
forecasts, and also the model that I talked about, the first 
model that we have been able to operationalize from NSF and 
NASA, definitely played a critical role in that. So continuing 
to transition those research into operations is important to 
advance the forecast accuracy.
    Ms. Edwards. But it is still not terribly accurate. So, for 
example, even with a 6-hour window, it is--I mean, it would be 
really difficult to implement any activity on the ground or 
protecting the infrastructure in that kind of time frame.
    Ms. Furgione. So that is a 6-hour window on when it would 
impact the Earth but the actual alert or warning goes out 1 to 
3 days in advance. So you actually do have time in advance to 
take those precautionary measures on the power grid, on your 
GPS and on the satellite instruments to put them into safe 
mode.
    Ms. Edwards. Thanks.
    And then I have 13 seconds. Let me take advantage of that. 
In your opinion, and this is to any of our panelists, how well 
do you think the public really understands the linkage between 
the research and the applications and their everyday 
experiences of just being able to power on a cell phone?
    Dr. Baker. I would say that there has been tremendous 
improvement in public awareness of the effects of space weather 
in, let us say, the last 5 to ten years but we still have a 
long way to go. We still have a lot of work to do to make 
people understand what is the variability of the Sun, how does 
it affect the Earth environment and how does it bore down to 
their daily lives as your question indicates. I think we have 
an opportunity with the approaching solar maximum to really see 
more frequent kind of disturbances, to put those in proper 
context and to really help the public understand what to be 
worried about and what not to be worried about. I think it is 
key that all the agencies play that role.
    Ms. Furgione. One thing also, as we were looking at the 
solar maximum and using that as a potential to increase the 
education and outreach, one of the emphasis is that the solar 
maximum is an increase in the number of events but not 
necessarily an increase in the significance of the events. So 
an event can happen at any time, and we want folks to make sure 
that they weren't just focusing on the solar maximum and that 
they were safe before or after the solar maximum because an 
event can happen at any time.
    Chairman Palazzo. I now recognize Mr. Brooks from Alabama.
    Mr. Brooks. Thank you, Mr. Chairman.
    Given the deficits and debt that America has accumulated 
and the exploding costs of entitlement programs, the two of 
those putting more and more constraints on the productive side 
of the federal expenditures, productive being things like NASA 
and scientific advancement, to what extent should NASA and NOAA 
consider alternative means for gathering important data via 
commercial data buys, posted payloads, use of research on the 
International Space Station, increased use of CubeSats or other 
means, and that is for any of the witnesses.
    Dr. Baker. I could first remark that thank you for the 
question, and this was a very important component of our 
decadal survey was to try to look broadly at all of those 
alternative means, and I think we came out very strongly 
foursquare in support of a much greater diversification of 
access to space, tools in space, rides of opportunity, the data 
buy service level agreements, all the things you talked about, 
and I think I can speak with great confidence for the entire 
steering committee that this was warmly received, these ideas 
were warmly received within the decadal survey context as 
excellent ways to make most efficient and effective use of what 
are known to be limited resources.
    Mr. Brooks. Mr. Gay?
    Mr. Gay. Yes, sir. We are looking increasingly at 
alternative means for access to space, and in fact, most 
recently have selected a hosted payload in the Earth Sciences 
Venture Class program. The Tempo mission will be hosted on a 
commercial geosync spacecraft. Also looking at increased usage 
of the ISS as a platform for science will be flying the SAGE 3 
instrument on the space station, the OKO-3 instrument and also 
there is some astrophysics missions as well that will be using 
the space station as a platform. Also, looking at the 
capabilities for smaller spacecraft to provide real scientific 
or high scientific results. We are flying CubeSats but more for 
educational purposes but we are looking at the smaller end. We 
have a mission that was recently selected called Cygnus, which 
is multiple small spacecraft that will look at achieving some 
real groundbreaking science with very small platforms.
    Mr. Brooks. Thank you, Mr. Gay.
    Ms. Furgione?
    Ms. Furgione. Thank you, Mr. Brooks. As I mentioned before, 
in the post-DSCOVR era, we will definitely have to seek 
alternative means and look at all the options, particularly in 
these budget-constrained times.
    Mr. Brooks. Well, I cannot over-emphasize the importance of 
you all doing whatever you can to become more efficient in the 
context again of the exploding costs associated with the wealth 
transfers and the entitlement programs. As you see from the 
public debate, the issues that we face in Congress are very 
substantial in that regard, so I appreciate your attentiveness 
to that issue.
    Now, a question for Mr. Baker. What led the survey 
committee to conclude that the Solar-Terrestrial Probes program 
would be better suited as competed principal investigator cost-
capped missions rather than as a traditional NASA center-led 
mission?
    Dr. Baker. Yes. We were extremely concerned as a committee 
and as a community about how to contain the spiraling upward 
costs in mission development. We worked closely with the 
aerospace corporation to examine the history of mission 
performance, and we looked at the question with the aerospace 
history database, what was the evidence of which missions 
performed best at a given complexity level, and there was a 
very clear record in that that showed that PI-led cost-capped 
missions performed much better at a given complexity level were 
considerably lower in cost and so it was our considered opinion 
that making that the hallmark of the Solar-Terrestrial Probes, 
making them cost capped, making them led by principal 
investigators, making sure that the full lifecycle costs were 
going to be contained within that envelope was the single-best 
way we had of managing them more effectively and in a more 
cost-contained fashion.
    Mr. Brooks. Thank you, Dr. Baker.
    And Mr. Gay, can you please share with us NASA's view on 
the survey committee's recommendation?
    Mr. Gay. Yes, sir. We are certainly going to look at this. 
I mean, it is an acquisition strategy or acquisition approach, 
and we have processes at NASA to make these kinds of decisions. 
We do have to include factors such as workforce. But typically 
the strategic missions implemented by the NASA centers are 
traditionally the larger, more complex missions, and it is 
typically easier to do smaller missions on cost.
    That said, however, I believe NASA has been making great 
strides in our ability to improve our ability to estimate what 
a mission is going to cost through various analytic tools as 
well as our ability to manage them with value management and 
detailed assessments of how things are going, so we have been 
making improvements, I think really across the board, both on 
the PI led as well as the in-house missions. I think the idea 
of looking at the Solar-Terrestrial approach line as a cost-
capped mission line is worth considering. In fact, we are going 
to consider it very closely, and look at models for managing 
those types of missions so that we can ensure that they are 
done on cost and on schedule.
    Mr. Brooks. Thank you, and thank you, Mr. Chairman.
    Chairman Palazzo. Thank you, and if there is no objections 
from the Members, we will enter a second round of questions. 
Okay, and I will lead off.
    Ms. Furgione, does NOAA have any plans to revamp funding 
for applied space weather research, given its importance as 
cited in the decadal survey report?
    Ms. Furgione. Thank you, Mr. Chairman. We were quite 
excited to see that the report was recognizing that additional 
resources needed to be dedicated to advancing the development 
and transition into operations. So as we look at our research 
activities on applied research, we are definitely hoping to see 
more connection and more collaboration with NASA and NSF on 
this research to operations.
    Chairman Palazzo. What are the benefits for rechartering 
the National Space Weather program as the survey committee 
recommends versus leaving the program as is, and what are the 
drawbacks? And this is pretty much for all the witnesses, and 
we will start off with Dr. Baker.
    Dr. Baker. Yeah, we looked at that. Thank you for the 
opportunity to talk more about this. It has become clear to us 
as the steering committee that over the last few years, the 
National Space Weather program, all its elements have increased 
in prominence, significance, importance to society, and it was 
the strong feeling as we discussed these topics that having 
attention at the highest levels of the executive office of the 
President would be very valuable, very important and really 
help to coordinate across the agencies. And so the considered 
opinion as expressed in the survey was that at least looking 
seriously at rechartering at a higher level, a higher level 
within the executive office, making sure that attention was 
being paid to all the multi-agency issues was probably one of 
the best ways to increase attention, assure that all the topics 
and themes were getting their due, and that ultimately we could 
have a more effective national program.
    Mr. Gay. Thank you. I would first say, I would like to have 
further discussions with Dr. Baker and with NOAA and our other 
partners in the National Space Weather program council about 
the pros and cons. I don't feel like I am at a point where I 
know, you know, or comfortable either way in making a 
recommendation. But I do know even today under the Office of 
the Federal Coordinator for Meteorology, we are embarking on 
development of a strategic plan for that organization, and the 
principal focus for that is to address the recommendations of 
the decadal survey. Whether it stays where it is or is 
rechartered elsewhere, I don't have an opinion on that today, 
sir.
    Chairman Palazzo. That is fair enough, so you two get 
together and work it out.
    And Ms. Furgione?
    Ms. Furgione. Thank you, and I have similar comments to 
that, to my colleagues. It would definitely raise the 
visibility if that is the primary goal, but we do have quite a 
few activities that are already underway in our current 
structure through the National Space Weather Program including, 
as Mr. Gay talked about, the strategic research plan that is 
already being developed.
    Dr. Baker. I would just like to say, I would like to 
compliment the agencies on what they have done with the present 
advisory and organizational structure. It has been amazing 
progress in these last years. I would just say that I think it 
is very worthwhile to talk with the Office of Science and 
Technology Policy, with the Office of Management and Budget, 
all the players on the executive side and with strong 
involvement of the advisory committees and the oversight 
committees here in Congress to talk about what is the best way 
to have the most effective national space weather program.
    Chairman Palazzo. All right. Thank you.
    Dr. Baker, can you summarize the survey's recommendations 
related to the new space weather and climatology program with 
NASA's lead, and what led the committee to make such a 
recommendation?
    Dr. Baker. Well, first of all, let me say that this was not 
strictly a recommendation, it was what we call the vision. We--
as all good survey committees--overstepped our bounds. We went 
beyond what we were asked to do or instructed to do, and 
decided to give advice of a sort where we weren't asked for it. 
But our vision was to think about what do we need to have an 
effective national operational space weather program. We have 
to have complete observations of the Sun, the interplanetary 
medium, the effects of Earth. We have to have the models, the 
tools that are really necessary to tie all this together. This 
really requires an investment of more resources than are 
presently available in the budgets of any of the agencies, and 
so the vision we laid out was one that would require another 
$100 million to $200 per year over this next decade without 
doing damage to the basic science or the ongoing activities of 
NOAA or NSF or the other agencies, and so the vision we talked 
about was if possible, we would love to have the present roles 
and responsibilities reinforced with more resources, but if 
that is not possible, then one possible way would be for NASA 
to take on greater basic observational monitoring of the 
system, have that put more into its charter and mandate. And so 
the fundamental recommendation we made was to have a follow-on 
study that looked closely at these issues and made firm 
recommendations. We felt the steering committee was neither 
chartered, as I said, nor did it have the time to do the kind 
of detailed development of a plan that is really necessary. And 
so I hope that the real outgrowth of this will not be that we 
take the vision alone but that we really have a much more 
detailed examination of all the aspects of this.
    Chairman Palazzo. I now recognize Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman.
    I just want to follow along because I had asked earlier, 
Mr. Gay, your opinion about expanding NASA's role, but I didn't 
have a chance to hear from Ms. Furgione about how that expanded 
role for NASA would relate to NOAA's activities, and so if you 
could just give me a minute.
    Ms. Furgione. Thank you, Ms. Edwards, for that question. 
One of the things with our operational mission is that we are 
able to rely upon our successes in our hurricane forecasting, 
and our tornado forecasting, as I mentioned, those particular 
areas that we have proven success in the past, and that 
includes with the hurricane model in particular the interagency 
modeling and the transition to research that we have been able 
to put in place and improve our hurricane track and intensity 
forecast. So a proven success, as you saw, with Hurricane 
Sandy, and so those roles and responsibilities we believe 
should stay--the operational responsibilities should stay with 
NOAA in regards to producing those operational forecasts and 
warnings.
    Ms. Edwards. So given that, what would you see? As to the 
extent that NASA were taking on additional areas of 
responsibility, how would you see that fit in?
    Ms. Furgione. Well, additional responsibilities, they are 
already doing the basic and applied research, so if they can 
continue to work with us on the transition of that applied 
research through our community modeling, that would be the 
ideal situation.
    Ms. Edwards. And so can you just explain to me, and Mr. 
Gay, perhaps you could chime in here, what are some of the key 
challenges for transitioning the basic solar and space physics 
research into tools that can be accessed by users and applied 
in the operations that Ms. Furgione spoke about?
    Mr. Gay. I think some of the key challenges are validation 
of the models and user acceptance of those models. They do have 
to go through an extensive validation period, and that is 
typically a very hard point and takes a lot of time and effort, 
and I defer to my colleague from NOAA to talk about what is 
like on the receiving end of those but I am sure it is very 
difficult for them to, they build confidence in the models that 
they are operating, using at this time, and there is a high 
bar, a very high bar for them to accept a new model in that 
place.
    Ms. Edwards. Ms. Furgione?
    Mr. Furgione. Yeah, a point I will make is in regards to 
our requirements process, so as we look at our customers' 
requirements and their changing needs and increasing demands 
for this type of information, that is where we can then hone in 
on what particular model would ideally help improve our 
forecasts to meet those customer needs, so it is really about 
the requirements and also the validation as Mr. Gay talked 
about.
    Ms. Edwards. And Dr. Baker, as you respond, I wonder if you 
could also tell me the degree to which you think that the 
current federal agency activities that can be coordinated or 
better coordinated including funding and plans for space 
weather and how effective the current coordination is.
    Dr. Baker. Let me respond to, or address a point that was 
just made here. I would say that the difference between 
terrestrial weather and space weather is the degree of 
understanding we have of the basic processes. I would say that 
we are far behind where terrestrial weather is as far as our 
understanding of the fundamental basic processes. We are being 
surprised all the time by what the Sun does and how the Earth 
and the Earth's environment respond. So I think there is a much 
closer coupling in many respects between NASA basic research 
and the needs thereof and what can be transitioned into an 
operational state.
    I would say that therefore, to go to the second part of 
your question, it is probably more crucial to have close 
cooperation between agencies in this developing field than it 
is where the physics are sort of cut and dried and so again, I 
am encouraged by the fact that space weather, the necessity to 
understand this complex system, is making the agencies work 
more closely and cooperatively. I just think that there is more 
that can be done and I think that--my hope is that the decadal 
survey will be a catalyst to make this work even better and 
that there will be more coordination of, let us say, the basic 
research, the aspirations of that research, the funding that is 
necessary to transition, but I think it is really going to 
require that all players work in an orchestrated way to try to 
make this the most efficient, effective, especially when we 
look at how limited the resources are going to be over the next 
years. This has to be done very efficiently and effectively.
    Ms. Edwards. Thank you. You know, Mr. Chairman, one thing 
that we didn't have a chance to get actually on the record was 
not just the impacts to us as civilians in this environment but 
what the impacts are on our critical national infrastructure 
that is related to national security and the importance of 
strengthening what we are doing right now so that we don't have 
any gaps in understanding space weather and its impact and so 
that over the long term that we are considering all of our 
infrastructure in this environment. Thank you.
    Chairman Palazzo. Thank you, Ms. Edwards.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The Members of the Subcommittee 
may have additional questions for the witnesses, and we will 
ask you to respond to those in writing. The record will remain 
open for two weeks for additional comments and statements from 
Members.
    On a related note, Ms. Furgione, this Committee has several 
outstanding letters and requests sent to NOAA regarding the 
National Weather Service over the last few weeks. These include 
the mismanagement of NWS budget and funding and questions about 
a review of your agency's handling of Superstorm Sandy. I would 
ask for your commitment that these requests for information are 
fully responded to by the end of the calendar year. Can we 
receive your assurance that that will be done?
    Ms. Furgione. Yes, sir.
    Chairman Palazzo. Well, thank you very much.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:04 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Daniel Baker
[GRAPHIC] [TIFF OMITTED] 77037.051

[GRAPHIC] [TIFF OMITTED] 77037.052

[GRAPHIC] [TIFF OMITTED] 77037.053

[GRAPHIC] [TIFF OMITTED] 77037.054

[GRAPHIC] [TIFF OMITTED] 77037.055

[GRAPHIC] [TIFF OMITTED] 77037.056

[GRAPHIC] [TIFF OMITTED] 77037.057

[GRAPHIC] [TIFF OMITTED] 77037.058

[GRAPHIC] [TIFF OMITTED] 77037.059

[GRAPHIC] [TIFF OMITTED] 77037.060

[GRAPHIC] [TIFF OMITTED] 77037.061

[GRAPHIC] [TIFF OMITTED] 77037.062

Responses by Mr. Charles J. Gay
[GRAPHIC] [TIFF OMITTED] 77037.063

[GRAPHIC] [TIFF OMITTED] 77037.064

[GRAPHIC] [TIFF OMITTED] 77037.065

[GRAPHIC] [TIFF OMITTED] 77037.066

Responses by Ms. Laura Furgione
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
